<html>
<title> - [H.A.S.C. No. 115-81]</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-81]
                    ________________________________
                    
                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       SUBCOMMITTEE ON READINESS

                          meeting jointly with

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                                   ON

              MOBILITY AND TRANSPORTATION COMMAND POSTURE

                               __________

                              HEARING HELD
                             MARCH 8, 2018
                             
                             
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
29-459                 WASHINGTON : 2019                                           
  

                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Thomas Hawley, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Megan Handal, Clerk

                                 ------                                

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Megan Handal, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     2

                               WITNESSES

Buzby, RADM Mark H., USN (Ret.), Administrator, Maritime 
  Administration.................................................     6
McDew, Gen Darren W., USAF, Commander, United States 
  Transportation Command.........................................     4

                                APPENDIX

Prepared Statements:

    Buzby, RADM Mark H...........................................    62
    McDew, Gen Darren W..........................................    36
    Wilson, Hon. Joe.............................................    33
    Wittman, Hon. Robert J.......................................    34

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Hanabusa.................................................    71

Questions Submitted by Members Post Hearing:

    Mr. Byrne....................................................    76
    Mr. Conaway..................................................    75
    Mr. Cook.....................................................    75
    Mr. Gallagher................................................    76
              MOBILITY AND TRANSPORTATION COMMAND POSTURE

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Readiness, Meeting 
            Jointly with the Subcommittee on Seapower and 
            Projection Forces, Washington, DC, Thursday, 
            March 8, 2018.

    The subcommittees met, pursuant to call, at 9:05 a.m., in 
Room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the Subcommittee on Readiness) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Good morning. The subcommittees of the House 
Armed Services Committee will come to order. I welcome each of 
you to this joint hearing of the Readiness Subcommittee and the 
Seapower and Projection Forces Subcommittee on the posture of 
U.S. Transportation Command.
    Today, the subcommittee will hear from the commander of 
Transportation Command [TRANSCOM] and the administrator of the 
Maritime Administration [MARAD] on how well the Department of 
Defense is postured to meet the heavy and sustained logistical 
demands of a major conflict.
    While TRANSCOM has operational control of some Air Force- 
and Navy-owned aircraft and ships for this mission, a major 
contingency will require the substantial assistance of the U.S. 
commercial air and shipping fleet.
    Further, TRANSCOM must rely on the military departments to 
budget for critical organic assets, such as ships, planes, and 
ports, and the commercial air and shipping industry to 
willingly participate in defense logistical programs. TRANSCOM 
can influence but cannot direct Army, Navy, and Air Force 
budget decisions nor commercial industry business decisions.
    We understand that there are some deficiencies in the 
complex system that must be addressed. Among these are the Air 
Force's aging tanker fleet and some near-obsolete vessels that 
are part of our surge sealift fleet.
    Today we welcome the witnesses' perspectives on these 
issues and any recommendations they may have.
    Before I introduce the witnesses, I turn to the 
distinguished ranking member of the Readiness Subcommittee, the 
gentlelady from Guam, Congresswoman Madeleine Bordallo, for her 
opening statements.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 33.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    General McDew, Mr. Buzby, thank you for being here today.
    Gentlemen, as a resident of Guam, I am very familiar with 
the importance of a resilient logistics chain, and I do thank 
you for your efforts to bolster support to our military forces 
around the globe.
    These committees remain advocates to ensure that TRANSCOM 
and MARAD are provided the resources they need to deliver full-
spectrum global mobility solutions to geographic combatant 
commanders in both peace and war.
    While both agencies have been supporting ongoing military 
operations for decades, the conflicts have generally been 
permissive to air and sea sustainment.
    I understand that CENTCOM [U.S. Central Command] 
requirements have burdened the services, but I am concerned 
that we may be slow to react to potential high-end threats, or 
inadequately planning for and programming the capabilities 
needed to sustain the joint force in a contested environment.
    So that said, I look forward to hearing from you today 
about your priorities, areas of concern, and how the fiscal 
year 2019 budget request will address these issues and balance 
current force sustainment, while bridging future capability 
gaps.
    And with that, Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Congresswoman Bordallo.
    We now proceed to the distinguished chairman of the 
Seapower and Projection Forces Subcommittee, a great friend of 
the military of the United States, Congressman Rob Wittman of 
Virginia.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. Thank you, Chairman Wilson.
    And I want to welcome General McDew and Admiral Buzby, and 
thank them for your time and effort that they have made on this 
extraordinarily important issue.
    And I also want to thank Chairman Wilson for offering to 
have this joint subcommittee hearing today. I believe there are 
a number of overlapping issues between our two subcommittees, 
and I look forward to working with the gentleman from South 
Carolina to move these issues through the NDAA [National 
Defense Authorization Act] process.
    Gentlemen, I think the Department of Defense [DOD] needs to 
reassess its commitment to a core military competency: 
logistics. At the heart of any successful campaign is a 
logistics train that provides the bullets and butter to the 
combatant forces in a timely manner.
    While high-profile acquisition programs are prioritized, 
little-known capabilities are left to continue their operations 
with little funding. It is obvious to me that we need to turn 
our attention to airlift and sealift elements of our military 
strategy and take immediate steps to improve our logistics 
capabilities.
    Today, we have a surge sealift force that averages 42 years 
old. Certain officials have referred to this sealift force as 
the last bastion of steam-powered technology in the world. In 
fact, by 2020, TRANSCOM will own almost all of the steam-plant 
ships in the world. This is not a moniker that I relish, but it 
is a good example of the plight of our sealift forces.
    While MARAD has done an extraordinary job of maintaining 
and activating select Ready Reserve Force ships, the reality of 
a full activation of this aged fleet is, at best, circumspect.
    I am equally perplexed that this military has not to date 
presumed attrition in their auxiliary force requirements. It is 
pretty obvious that we have overly optimized our forces for 
peace. As envisioned by the National Defense Strategy, it is 
time that we shift our focus to get ready for a future of a 
potential conflict.
    I look forward to General McDew's assessment as to the 
impacts of the National Defense Strategy on the mobility 
forces. After meeting with General McDew last week, it is my 
understanding that an updated report on auxiliary forces, to 
include attrition, will be completed by the fall.
    As to our strategic airlift capabilities, today we depend 
on a much smaller fleet to move cargo, personnel, to medevac 
the wounded, and to support disaster relief around the globe.
    For example, the last hurricane efforts with Hurricane 
Maria and Irma left us with an insufficient strategic airlift 
capability available to move troops and cargo to Afghanistan in 
a timely manner, threatening the Department of Defense's 
ability to blunt Taliban territorial gains. So when we get 
spread thin, the ability for us to do all the jobs gets 
stretched to the breaking point.
    I am concerned that outdated planning assumptions need to 
be reviewed. I believe that assumptions made for an ongoing 
mobility capability and requirements must take into account the 
logistical needs of a future dispersed battlefield.
    Furthermore, the administration has made it clear that it 
wants to increase Army and Marine Corps force structure that 
will drive even greater mobility requirements. Additionally, 
areas are becoming less permissive for civilian aviation's 
operations to deliver these additional soldiers and Marines to 
their areas of operation, increasing demands on an already 
insufficient fleet of strategic lift aircraft.
    Consequently, I believe it is critical for TRANSCOM to 
thoroughly consider how to best increase strategic airlift 
capacity and its ability to operate in contested environments 
around the globe.
    At the conclusion of World War II, Fleet Admiral Ernest 
King reflected on our success and our shortcomings. He 
indicated, ``The war has been variously termed a war of 
production and a war of machines. Whatever else it is, so far 
as the United States is concerned, it is a war of logistics.''
    It is time that we reflect on Admiral King's assessment, an 
assessment that was paid for with the blood and sweat of the 
Greatest Generation. Today, we need to ensure that our 
logistics capability will provide the lift required in a timely 
manner to support our military objectives.
    I thank Chairman Wilson for working with the Seapower and 
Projection Forces Subcommittee on this important issue. And I 
yield back the balance of my time.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 34.]
    Mr. Wilson. Thank you, Chairman Rob Wittman.
    I am grateful today to recognize our dedicated witnesses. 
We have extraordinary people who are with us today and we 
appreciate you taking time to be here.
    We have General Darren McDew, Commander, U.S. 
Transportation Command; and Rear Admiral (retired) Mark Buzby, 
the administrator of the Maritime Administration.
    As we begin, we want to remind the witnesses that your full 
written statements will be submitted to the record and that you 
summarize your comments to 5 minutes or less.
    And, General McDew, we are grateful to begin with you, and 
look forward to your opening statement.

    STATEMENT OF GEN DARREN W. McDEW, USAF, COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

    General McDew. [Turns on microphone.] I forget that every 
time.
    Thank you. And good morning, Chairmen Wilson and Wittman, 
Ranking Members Bordallo and Courtney, and distinguished 
members of the subcommittees. Thank you for this opportunity.
    As I have told some of you during office calls, I don't 
look forward to testimonies. I am an introvert. It is not one 
of my favorite things to do. But it is also what I have told my 
staff is one of the most important things I do every year. So 
thank you very much for the opportunity.
    It is also an honor to be sitting here next to a great 
shipmate and a talented leader, Admiral Buzby. I rely on his 
sage advice to ensure that the U.S. maritime industry remains 
postured and prepared to support our national defense.
    So thank you for the opportunity to represent the men and 
women of the United States Transportation Command, who are 
actually watching this morning, because they want to make sure 
that I don't get this wrong.
    Those men and women who make up this command underwrite--
and I say it again--underwrite the joint force's lethality and 
with an unparalleled expeditionary capability. And just to say 
it shortly, I am very, very proud of them.
    USTRANSCOM's total force team works together every day to 
provide our Nation with a broad range of strategic capabilities 
and options, options that many nations don't have. But they 
don't do it alone.
    I wish every American understood how much we rely on the 
Nation's truck drivers, conductors, commercial pilots, 
mariners, stevedores, and much more to meet national defense 
requirements.
    USTRANSCOM is a global warfighting command with functional 
responsibilities and expertise, and we take it proudly. We move 
and sustain the joint force, but we are also responsible for 
the expansive joint deployment and distribution enterprise.
    I can say with full confidence that today, USTRANSCOM 
stands ready to deliver on behalf of the Nation's objectives 
anywhere, at any time.
    However, as I said last year, I remain concerned about the 
future. As we refocus our efforts on great power competition, 
we are faced with adversaries who want to challenge our 
democratic values and undermine our security and the existing 
balance of power.
    In this environment, the logistics enterprise must always 
be ready. We must restore readiness and increase lethality 
across the joint force. The resources necessary to transport 
and sustain America's military must keep pace.
    Our ability to deploy decisive force is foundational to the 
National Defense Strategy. The size and lethality of the force 
is of little consequence if we can't get it where it needs to 
go when we want it there.
    The 2018 National Defense Authorization Act directed a 
mobility requirements study, and in fact, the current inventory 
of mobility assets is sufficient enough to support combatant 
commander requirements.
    This study will consider the current strategic context and 
use updated assumptions, assumptions such as multi-domain 
contested environments, attrition of mobility assets, and the 
outcomes of the study will provide valuable insight to ensure 
we are able to respond to tomorrow's needs as well.
    But USTRANSCOM can't get there alone. We need the weight of 
the Nation with us and behind us to ensure that our diplomats, 
when they go to the negotiating table, they are negotiating 
from a position of strength.
    However, one of the greatest threats to that strength is a 
result of illicit activities in the cyber domain. Today, our 
adversaries don't have to stop us with bombs and bullets. All 
they have to do is slow us down with ones and zeroes.
    That is the challenge I would say of our time. We have got 
to get smarter as an industry and as a nation, not only about 
how we protect ourselves, but how we protect each other.
    Cyber defense is more than just security, it is about, for 
me, mission assurance. It is not just a DOD issue, it is a 
national issue. From safeguarding our intellectual property to 
guaranteeing the integrity of our elections, we have all got to 
be together.
    We also face challenges in the physical domain. The current 
mix of Active to Reserve Component resources in USTRANSCOM 
means that the command relies on the Reserves and National 
Guards to fulfill our wartime requirements. For the past three 
decades, Reserve Component assets have been used to sustain 
day-to-day operational requirements, a function for which they 
weren't properly resourced or structured.
    Meeting the challenges of the future may require 
adjustments to mobilization authorities or force mix to ensure 
we have access to vital capacity currently resident in our 
Reserve and Guard.
    Our patient movement system also presents challenges. 
Although USTRANSCOM operates the most robust patient movement 
system in the world, we lack sufficient capacities to surge for 
large-scale conflict with mass casualties.
    The combination of insufficient personnel, equipment, 
infrastructure, and capacity for patient movement significantly 
decreases the likelihood we will see the same high-level 
survival rates that we have all come accustomed. We continue to 
work with the services, the Joint Staff and the national health 
enterprise to address these challenges.
    Finally, we are able to maintain our go-to-war capacity, we 
must ask ourselves as a nation who are we and who do we want to 
be? The U.S.-flagged fleet has steadily declined since World 
War II, from a little over 1,200 ships to 81 remaining today.
    That degradation correlates to a decline in qualified 
merchant mariners. They are the backbone of our industry. If we 
continue to lose this capacity, I am concerned what it will 
mean for how we project our force in the future.
    Again, thank you very much for this wonderful opportunity 
to present the case. And, as you said, the rest of my remarks 
will be for the record. Thank you.
    [The prepared statement of General McDew can be found in 
the Appendix on page 36.]
    Mr. Wilson. And, General McDew, thank you very much for 
your statement. And we appreciate your service so much for our 
country.
    We now proceed to Rear Admiral Buzby. Please proceed with 
your opening statement. Thank you for being here.

  STATEMENT OF RADM MARK H. BUZBY, USN (RET.), ADMINISTRATOR, 
                    MARITIME ADMINISTRATION

    Admiral Buzby. Morning, Mr. Chairman, Chairman Wittman, 
Ranking Members Courtney and Bordallo, and members of the 
subcommittee. Thank you for inviting me to this hearing to 
discuss MARAD's role in meeting DOD's strategic sealift 
requirements.
    Our Nation relies on maritime sealift capabilities to 
deploy and sustain military forces, respond to national 
emergencies, and provide humanitarian assistance at home and 
around the world. These assets include a core of government-
owned vessels and a larger fleet of privately owned, 
commercially operated U.S.-flagged vessels, intermodal systems, 
and mariners who operate them.
    During a crisis, these vessels and mariners would transport 
90 percent of the equipment and supplies used by our military 
around the world.
    The government-owned fleet of 61 strategic sealift vessels 
includes 15 ships operated by Military Sealift Command and 46 
in the Maritime Administration's Ready Reserve Force, the RRF. 
These ships constitute the core of our surge sealift fleet and 
deliver military equipment and supplies on short notice during 
major contingencies. The average age of this fleet is 43 years, 
well beyond the designed service life of these ships.
    Given the age of the fleet, the readiness of the RRF is a 
constant challenge. MARAD is collaborating with our DOD 
partners to address maintenance, repair, and modernization of 
the existing fleet, while we finalize a long-term 
recapitalization strategy.
    The RRF is a component of the National Defense Reserve 
Fleet, or the NDRF. The NDRF includes vessels used to train 
merchant mariners and to provide response to natural disasters. 
These ships supported relief activities following Hurricanes 
Harvey, Irma, and Maria, and as they have in past crises, 
supplying citizens and first responders with housing, meals, 
logistical support, and relief supplies.
    In their training role, these six NDRF vessels serve as 
school ships for more than three-fourths of the entry-level 
merchant marine officers who graduate annually from the six 
State maritime academies.
    Like RRF vessels, several of these school ships are at the 
end of their service lives. To ensure the availability of safe 
and efficient vessels to meet mariner training needs, the 
administration is amending the President's budget request to 
include $300 million to replace two of these oldest training 
vessels.
    The U.S.-flagged commercial fleet is absolutely critical to 
the U.S. military's sealift objectives, providing long-term 
sustainment during military deployments.
    Access to this fleet comes primarily through the Maritime 
Security Program, the MSP, which supports a privately owned 
U.S.-flagged and U.S.-crewed fleet of 60 militarily useful 
commercial ships operating in international trade that are 
available to transport government supplies when called upon.
    Critically, the MSP helps to ensure the availability of an 
adequate pool of highly trained mariners to crew our 
government-owned RRF fleet.
    Unfortunately, the U.S.-flagged commercial oceangoing fleet 
is in serious decline, with just 81 vessels in deep-sea 
international trade. Qualified U.S. mariners are needed to 
operate the surge fleet of 61 government-owned cargo ships in a 
crisis.
    Yet, because of the drastic reduction in the size of the 
U.S.-flagged oceangoing fleet, the number of qualified mariners 
now available to crew a prolonged sealift mobilization is at a 
historic low.
    MARAD recently assessed the size of this pool needed to 
support the U.S.-flagged fleet in a major contingency and 
estimated a shortfall of 1,800 mariners for a long-term sealift 
effort.
    As Maritime Administrator, I take seriously my charge to 
ensure that we have enough U.S.-flagged ships and mariners to 
serve our Nation's commercial and military sealift 
requirements. I am working closely with USTRANSCOM, the 
Military Sealift Command, and the U.S. Coast Guard and the 
commercial maritime [industry] to address these issues.
    Access to cargo is critical for shipowners to compete 
globally while operating under the U.S. flag and employing U.S. 
mariners. Cargo preference laws keep U.S.-flagged operators 
competitive by requiring U.S.-flagged vessels to transport 
significant portions of cargoes purchased with Federal funds.
    In addition, the Jones Act U.S. build, ownership, and crew 
requirements support mariner jobs and give us access to 
domestic maritime assets needed in times of war or national 
emergency. It also serves national security priorities by 
supporting U.S. shipyards and repair facilities that produce 
and repair American-built ships. U.S. mariners on Jones Act 
vessels serve as another layer of national defense.
    Thank you for this opportunity to discuss these critical 
programs and the contribution of the U.S. merchant marine to 
augment DOD's sealift capabilities. I look forward to working 
with you to advance the maritime transportation interests of 
the United States, and I am happy to take any questions you may 
have. Thank you.
    [The prepared statement of Admiral Buzby can be found in 
the Appendix on page 62.]
    Mr. Wilson. And, Admiral Buzby, thank you very much for 
your testimony.
    We will now proceed for each subcommittee member to adhere 
to the 5-minute rule. And Tom Hawley is going to be keeping--
beginning with me--the 5-minute so that--we may be having votes 
as early as 10 o'clock. So we want to be respectful of this for 
each member of the subcommittee.
    And, General McDew, your testimony notes a legal 
restriction that hampers your ability to manage the air tanker 
fleet, namely a provision in the Defense Appropriations Act 
that prohibits TRANSCOM from controlling tanker assets now 
assigned to PACOM [U.S. Pacific Command] and EUCOM [U.S. 
European Command], even if their operational priority is lower.
    Given the state of our tanker fleet, this restriction is a 
serious matter. If you could highlight this consequence for the 
subcommittees?
    General McDew. Gladly, Mr. Chairman.
    In my responsibilities as a global combatant commander, one 
of the things that I relish is the fact that I have authority 
to move assets around the globe. My responsibility to the 
Chairman [of the Joint Chiefs of Staff] and the Secretary [of 
Defense] is to set the globe for logistics and ensure that we 
are in balance, and when we are out of balance be able to shift 
those assets to the place and point of need. We can do that 
with every other asset, except those that are restricted right 
now by law.
    And with those other assets, we can move from one theater 
to another, because if we could keep all the enemy combatants 
in one geographic commander's region and put a fence around it, 
and they were able to fight just inside that geofencing, that 
would be nice. But today's world doesn't allow that.
    Mr. Wilson. Thank you very much.
    And for each of you, your testimony highlights the alarming 
decline of the U.S.-flagged commercial shipping fleet. And it 
is incredible, and I hope you go over that specifically. What 
can be done to maintain a healthy U.S. Merchant Marine and the 
commercial fleet?
    Admiral Buzby. Mr. Chairman, it comes down to cargo. We 
have heard it been said many times, cargo is king. Without 
cargo, there is no need to have the ships, and without the 
ships, there are not the mariners.
    So to have cargo available for U.S.-flagged vessels to 
carry, that is the root of the problem. And whether we do that 
through cargo preference or through bilateral trade agreements 
or freeing up cargo that is available, that is the root of the 
problem.
    Mr. Wilson. And specifically how many U.S.-flagged ships 
are there?
    Admiral Buzby. Right now in international deep-sea trade, 
we have 81 U.S.-flagged ships.
    Mr. Wilson. And this has declined from----
    Admiral Buzby. Well, just as recently as 2012 we had 106.
    Mr. Wilson. So it is a very precipitous decline.
    Admiral Buzby. We had a 27 percent decline just in 5 years.
    Mr. Wilson. That is stunning, and the American people need 
to know that. Thank you.
    Admiral Buzby. Yes, sir.
    And General McDew, what is your assessment of the Air 
Force's progress in modernizing the air tanker fleet? Is the 
current plan reachable or can they move faster?
    General McDew. I would like to have a reasonable answer to 
this, Chairman, and that is, what I look at is the overall 
capacity. Modernizing is important because the backbone of that 
fleet is 61-plus years old. When I flew them as a young 
lieutenant they were old. They are considerably older today, 
because I am no longer a young lieutenant.
    So modernizing faster would be an answer, but the budget 
realities and the realities of bringing on a new weapons system 
are what they are. So we have got to continue to look at how we 
maintain them, how we fund that maintenance, because that is 
also a part of attrition as I see it.
    People talk about attrition as being kinetic and blowing 
things up or things falling out of the sky; not adequate 
maintenance can cause us to have attrition in that fleet.
    So what I applaud the Air Force of doing is putting a 
program together that gets us to recapitalization. We have got 
to press that harder to maintain the capacity that we have 
right now.
    Mr. Wilson. And I appreciate you raising that 51 years of 
age, some of the aircraft. The health and safety of our crews 
are a great concern, so however we can be working with you.
    And, General McDew, we understand that you are concerned 
about cyber vulnerabilities and your ability to communicate 
effectively with commercial partners in a time of conflict. 
What are you doing to address this risk?
    General McDew. Chairman, I want to applaud most of our 
industry partners for coming to the table with us regularly to 
involve themselves in our war games. I applaud the fact that 
they have accepted some of the--well, they have accepted all 
the things we have put in our contracting language to bring up 
the level of cybersecurity standards. What we have got to get 
to is a better standard for them.
    But I like the fact that they are working with us to 
improve all of our ability to protect ourselves. I would ask 
that the Nation take a deep look at itself and decide what we 
are going to do as a Nation about cybersecurity awareness and 
standards.
    Mr. Wilson. Well, it is ever-changing and your input will 
be so important as we proceed to address these crucial issues. 
Thank you.
    And thank both of you for being here.
    We now proceed to Congresswoman Madeleine Bordallo of Guam.
    Ms. Bordallo. Thank you, Mr. Chairman.
    General McDew, when you visited my office last week, you 
mentioned that TRANSCOM is starting to prepare for logistics in 
a contested environment. Now, can you speak briefly to how 
TRANSCOM models for attrition in varying threat environments? 
And then please expand on how TRANSCOM is adjusting their 
priorities with funding and training to be prepared to support 
a conflict with peer adversaries in the Pacific region?
    General McDew. Congresswoman Bordallo, I would love to, 
because I will tell you, I am very proud of what the men and 
women of USTRANSCOM have done over the last couple years in 
raising this level of attention to the idea of contested 
environment.
    Contested environment, we believe now, is woven into 
everything we think about. Unfortunately we are still in our 
nascent place with this realization. And so our modeling is 
new.
    This mobility capability study that we have been directed 
to do in the last NDAA will now include attrition, contested 
environment concerns for the very first time after multiple 
capability studies. And we have got an analysis center that is 
a crown jewel of this country, actually, to be able to do that 
kind of modeling for any place on the world, to include the 
Pacific region.
    Ms. Bordallo. Thank you.
    General, another question. The administration has discussed 
proposing a large increase in national infrastructure spending. 
Now, what would be your top priorities for infrastructure 
improvements, as the TRANSCOM commander, in order to benefit 
our national defense needs?
    General McDew. Well, I like the fact that if I say out 
loud, infrastructure is part of national security. The National 
Security Strategy is a really good step and it starts to get 
the American public to look at one thing. It is a national 
security strategy and not a Department of Defense security 
strategy.
    Our rail and roads infrastructure, our bridges, help us get 
from fort to port. That port then helps us get from port to 
port and then the onward movement into the place of need.
    So all of that infrastructure is part of national security: 
trucking, rail, and our seagoing infrastructure. So it is very, 
very important to us.
    Ms. Bordallo. Thank you. Please remember the Pacific.
    And my next question is for both of you.
    I understand that a large portion of our logistics rely on 
commercial partners, most of which operate on unclassified IT 
[information technology] networks. So what steps are you each 
taking to, first, bolster your network security internally and 
with corporate partners; and, secondly, ensure that your 
logistic chains remain resilient during network degradation?
    General McDew. Well, I will speak quickly to the Department 
of Defense has a very strong program through U.S. Cyber Command 
to bolster and fortify the defense network, the DODIN 
[Department of Defense Information Network]. And so I am 
relatively confident that we are doing a good job there, but we 
are learning every single day.
    My concern, because so much of it is outside and we rely 
heavily on our commercial partners, the lack of a national 
standard, the lack of national enforcement means that I need 
the Nation's help to ensure that not just the defense 
industrial base, the people that make our widgets or the people 
that we count on to move our goods and services around, are as 
secure.
    Admiral Buzby. Ma'am, thank you for that. It is a very 
challenging program, as General McDew pointed out, because we 
deal primarily with commercial operators outside of the DOD 
network security, if you will. It is a huge challenge.
    Many of the companies who operate with us, as the general 
mentioned, are under contract. Part of their contract to 
operate with the government is to meet a certain security 
standard, and they have been very diligent about doing that.
    We have set up forums. The National Defense Transportation 
Association has a forum on the air side and on the sealift side 
to talk about how we share information. So that if we see an 
attack on one particular carrier that we can share that 
information and also figure out how to fight through and 
maintain the capacity to provide the service to the government.
    It is going to be an ongoing effort. But I think awareness 
is number one and communication amongst ourselves is, kind of, 
key to kind of get where we have to go, but we have a long way 
to go.
    Ms. Bordallo. Thank you very much.
    And one last point, General. Can you describe some of the 
challenges you have that the geographic commanders aren't faced 
with? And how do you balance mobility assets between theaters 
to ensure the DOD's readiness to respond to contingencies? And 
are there any barriers to this responsibility?
    I only have about 5 seconds left, so----
    General McDew. The geographic combatant commanders are 
awesome people and they have a responsibility to fight a fight 
in their regions. My responsibility is across the entire globe.
    We are not a balanced force. We have more force structure 
towards the east than we do in the west, in the Pacific. That 
means that we have to be able to take resources from one area 
and apply them where they are needed most based on the 
priorities set by the President and the Secretary of Defense. 
So that is a bigger responsibility there.
    Ms. Bordallo. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Wilson. And thank you, Ranking Member Madeleine 
Bordallo, who we always appreciate, points out that the 
strategic location of the patriotic territory of Guam.
    [Laughter.]
    Mr. Wilson. It is in the Pacific.
    Mr. Wittman. That is right.
    Mr. Wilson. So thank you.
    And we are grateful now for the chairman of the Seapower 
and Projection Forces Subcommittee, Rob Wittman of Virginia.
    Mr. Wittman. Thank you, Mr. Chairman.
    And before I begin, General McDew, I would just get you, if 
you would, to place the microphone a little more directly in 
front of you. That will be a help, so, fantastic.
    Listen, I wanted to get, General McDew, your perspective, 
and also Admiral Buzby, as far as how we think in a more 
current framework about sealift. And I want to turn to some 
direct things in your testimony that you point to.
    And you said, the dwindling size of the domestic U.S. 
intercontinental--or, excuse me--intercoastal shipping fleet 
demands that we reassess our approach to ensure that the U.S. 
retains critical national security surge sealift capabilities. 
We also may need to rethink policies of the past in order to 
face an increasingly competitive future.
    I wanted to get you to drill down a little bit on that. 
Those are interesting concepts about what we do to reassess our 
approach, to rethink our policies.
    I wanted to get your perspective and, Admiral Buzby, your 
perspective on what would that rethinking and reassessing be? 
And what would you suggest to us where the redirection needs to 
take place in order to get the right policy for you to pursue 
this modernizing approach?
    General McDew. Well, I like the fact that I am going to 
have Admiral Buzby here to really call a friend on this one, 
because he is a much smarter human.
    I will take it from the perspective of a warfighting 
combatant command in the fact that we have a power projection 
responsibility. But if I step back even greater and I say the 
Nation, I still believe, is a maritime Nation. But finding the 
evidence in our laws and policies in what we do, to convict us 
in a court of law might become difficult if you start to look.
    And some of the programs we have out there that had well 
intentions in the beginning ought to be reviewed to see if we 
are applying all the things that we can apply, using all the 
rheostats that we can to actually make the implementation work.
    We have got rules that say you must use the Defense 
Transportation System. Applying it and making sure that it is 
actually being enforced is important as well. Some of that will 
get to some of the cargo problems that we are facing.
    Admiral Buzby. Yes, great question, sir. Thank you.
    I think some of the things that really kind of have to fall 
in place probably going forth is, again, cargo. That is key. I 
keep harping back on that because it is so fundamental.
    Mr. Wittman. Sure.
    Admiral Buzby. We have to be able to carry more of it. But 
the capacity of our Nation to produce vessels, to repair 
vessels, to maintain vessels is also really, kind of 
fundamental to that security piece of it as well. Absent that, 
you know, we are not going to get very far should we get into a 
dust-up and we have to start producing large oceangoing vessels 
again. Our capacity is kind of limited to that.
    You know, there are ways that we can carry more of our 
domestic cargo right now, get it off the roads. Our Marine 
Highway Program is a great way to do that. You know, our 
waterways, we are blessed with wonderful inland waterways and 
coastal waterways that are, by and large, underutilized and 
could carry a lot more freight with a program that, you know, 
has more vessels on there and that could be militarily useful.
    So I think all those are things that we need to think 
harder about.
    Mr. Wittman. Very good. I appreciate that. Those are 
policies we need to be emphasizing, I believe.
    General McDew, I wanted to talk to you a little bit about 
airlift. As we know, the C-17 line is terminated. We have 25 C-
5s that are now being sent out to the Aerospace Maintenance 
Regeneration Group out of Tucson, Arizona, better known as the 
boneyard.
    We know where the demand is for airlift. We know that we 
could reconfigure those aircraft to modernize them. And the Air 
Force has put a price tag on that of about $5.6 billion.
    I wanted to get your thought about where we are with 
airlift risk and should TRANSCOM consider increasing its 
airlift capacity by returning these aircraft to service?
    You talked about the need for military airlift, different 
from the CRAF [Civil Reserve Air Fleet] program and operating 
in a contested environment. Give me your perspective about what 
we can do, because this seems like a faster way, rather than 
building new aircraft, especially since we don't have a hot 
production line for lift aircraft, to look at these C-5s.
    General McDew. Well, one of the things I am very careful 
about in my role, is not getting into too much of the lane of 
the service chiefs and service secretaries. Their 
responsibility, obviously, is to organize, train and equip and 
provide those assets. And there are a lot of ways to skin this 
cat.
    And they have got top-line concerns, in the fact that a 
lack of a long-term regular budget on time is probably the 
biggest threat to any of that that we face. You can't do much 
of the things that you suggest that might be answered, without 
a budget on time year after year. So what I would say is we 
need to be able to look at all those things.
    But what we are doing, and the things we can control, is 
increasing the use of commercial where we can, making sure that 
we are more effective and efficient with the use of the gray 
tails and making sure that we are not overusing them when we 
could use other assets.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. And thank you, Chairman Wittman.
    We now proceed to the Seapower and Projection Forces 
Subcommittee ranking member, Congressman Joe Courtney of 
Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman.
    Again, I apologize to you and the witnesses. I was at an 
Education Committee matter this morning and got here a little 
late.
    So I would ask, Mr. Chairman, if I could have my opening 
statement just entered for the record?
    Mr. Wilson. And it shall be accepted.
    [The statement referred to was not available at the time of 
printing.]
    Mr. Courtney. And I want to yield my time to Ms. Hanabusa 
or Mr. Brown, whoever was here before me on our side because 
they were more punctual than I was.
    Mr. Wilson. Hey, you had important duties with the 
Education Committee, okay?
    Mr. Courtney. Okay.
    Mr. Wilson. And Congresswoman Hanabusa.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chair.
    Admiral Buzby, I was kind of taken by the statements that 
you made. You said early on in your testimony that cargo is 
very important and that is why we are seeing a reduction in 
basically what we have available. Then you also said that you 
need vessels that are militarily useful.
    So let me try and understand this. Cargo, for most part 
now, commercially, are transported like in container ships. I 
mean, the containers are stacked really high.
    Military useful, I suppose, because of your testimony as 
well, the two used ships that you plan to purchase are really 
roll-on/roll-offs.
    Admiral Buzby. Correct.
    Ms. Hanabusa. So the question I have is that when you talk 
about cargo and you talk about military useful, are we talking 
about the same types of commercial vessels that you need?
    Admiral Buzby. Primarily what we need, or what General 
McDew needs to move his force, are roll-on/roll-off ships 
primarily.
    You know, the force, our Armed Forces are primarily rolling 
stock, you know, tanks, trucks, vehicles, that sort of thing 
that move much more easily by having them roll up a ramp and 
into the belly of a ship as opposed to being lifted onto the 
deck of a cargo ship, something like that.
    We still have need for container ships to move ammunition 
and other, you know, bulk sort of supplies, but roll-on/roll-
off ships are really the vessels of choice these days.
    Ms. Hanabusa. So as I watched the different kinds of ships 
that are being built within the United States--I am talking 
about Jones Act ships that qualify on all three criteria--they 
tend to look more like container ships than they do roll-on/
roll-offs. Would you agree with me on that?
    Admiral Buzby. I would. Container ships and tankers, 
primarily----
    Ms. Hanabusa. Right.
    Admiral Buzby. Have been the larger ships that have been.
    Ms. Hanabusa. Have been the ships.
    Admiral Buzby. Right.
    Ms. Hanabusa. So almost by the needs of the general, you 
are basically saying that it is the MSP-type vessel, which is 
one that doesn't have to be built in America, it just has to 
be, arguably, flagged, which may mean 50 percent-plus of the 
board of directors plus maritime. But mariners are what we all 
want----
    Admiral Buzby. Right.
    Ms. Hanabusa [continuing]. Working anyway. That those ships 
tend to meet your criteria for General McDew. Am I correct?
    Admiral Buzby. As it stands today, yes, ma'am, that is 
correct.
    Ms. Hanabusa. Now, let me also ask you. We do know that you 
have a MSP stipend that you give ships for basically being 
available. And I think it is about--you said it is now $3.6 
million. I think we are authorized up to $5 million or 
something like that.
    Admiral Buzby. Authorized up to $5 million, yes, ma'am.
    Ms. Hanabusa. So how many ships are receiving stipends who 
may not be used? Do you have a number?
    Admiral Buzby. Well----
    Ms. Hanabusa. In other words, not called up but they do 
receive stipend.
    Admiral Buzby. There are 60 ships enrolled in the MSP 
program today, which is----
    Ms. Hanabusa. Right.
    Mr. Buzby [continuing]. The authorized number.
    Ms. Hanabusa. Right.
    Admiral Buzby. And all 60 of those ships are receiving 
their stipend.
    Ms. Hanabusa. I understand that. I am saying how many are 
actually called into service?
    Admiral Buzby. Well, right now, we have not called any into 
service. I mean, there are none currently called into service 
to do a sealift mission. They are also in liner service----
    Ms. Hanabusa. Right.
    Mr. Buzby [continuing]. In their normal service, and they 
are carrying government cargoes.
    Ms. Hanabusa. So if I could ask that you provide for me, 
through the committee chair, a list, in a year, the number of 
ships--or you can go 1 to 60, how many receive the stipend and 
how many were actually called into service. Because that is 
what we are paying them for.
    Admiral Buzby. Yes. I think call into service may be the 
thing. They are all carrying government cargo. They are all 
carrying government cargo.
    Ms. Hanabusa. Military cargo. Military cargo and for what 
length of time? In other words, what I want to know is whether 
we have a bunch of these ships that may receive a stipend, may 
be called up maybe once in 1 month, or 1 week, or something 
like that. That is what I would like to know. I want to 
understand the scope of the demand that we have and how we are 
meeting that demand.
    And I would also like to have, with the chairman's 
position, a breakdown as to where they are, because General 
McDew said something very interesting. He said, the demand is 
in the east more than the west, and he defined Asia as the 
west. And for some reason, as our theater seems to focus to 
Asia, I am very curious about that.
    And I am out of time, so with the chairman's permission, if 
you can put it in writing and return it.
    Thank you, Mr. Chair, and I yield back.
    Admiral Buzby. I will get that back to you, ma'am.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Wilson. And thank you very much, Congresswoman 
Hanabusa.
    We now proceed to Congressman Duncan Hunter of California.
    Mr. Hunter. Thank you, Chairman.
    Gentlemen, thank you very much for being here.
    Let us stay on the MSP, if you don't mind? We authorized 
$300 million. The administration only asked for $214 million. 
Let us start with that. Why is that? If it is so important, why 
would they underfund what we authorized and funded?
    Admiral Buzby. Mr. Hunter, I would start by saying the 
Department and MARAD greatly value and understand the 
importance of the Maritime Security Program. Absolutely. It is 
critical to our national security. It is critical to our 
sealift mission.
    It came down to a very difficult budget season, and we had 
to make some very, very difficult choices, and that is where it 
ended up.
    Mr. Hunter. So the reason that it went to $5 million per 
ship is because they couldn't do it anymore at $3.5 million or 
$3 million a ship. Is that correct?
    Admiral Buzby. That is----
    Mr. Hunter. You had ships and mariners dropping out of the 
program.
    Admiral Buzby. I don't know that is the case.
    Mr. Hunter. That is the case. You had multiple ships drop 
out. You had some space there. We added the money and then they 
were able to do it again.
    Do you have any estimates, either of you, any estimates of 
what it would cost if we didn't basically lease those ships, to 
build that out organically and to maintain 60 ships that were 
able to do what the MSP ships do? Roughly, what do you think 
that would cost?
    Admiral Buzby. Between the ships and the networks, I don't 
know that I have ever seen a number. It would be a very, very, 
very high number.
    Mr. Hunter. And the mariners, just guess, what do you think 
it would cost? To build 60 ships, to have them on call for----
    Admiral Buzby. About 2,400 mariners that, you know, would 
not be available.
    Mr. Hunter. So billions and billions and billions?
    Admiral Buzby. It would be a lot, yes, sir.
    Mr. Hunter. A lot. And this is $300 million a year. I think 
that is a good lease on our security to have those ships 
available.
    Let us talk about Jones Act really quick. I would just like 
you to talk about it. Let me quote you, General McDew, what you 
said last year. Quote, Without the Jones Act, without the 
Maritime Security Program, without cargo preference, our 
ability to project the force is in jeopardy. Is that still the 
case or has that changed?
    General McDew. Without the rheostats that you provided in 
Congress, those rheostats, we would be in jeopardy, because we 
would lose mariners, and we would lose ships in international 
trade. It is still the case.
    Mr. Hunter. Can you talk about the Jones Act and what it 
means----
    General McDew. The Jones Act----
    Mr. Hunter [continuing]. For the industrial base, for the 
mariners?
    General McDew. Yes. For me, the Jones Act, from a 
warfighting perspective, is all about the mariners and the 
ability to keep mariners trained and ready to go to war.
    The ships that are in the Jones Act are also useful, but 
the primary thing we get from the Jones Act are the mariners. 
And those mariners have been with us in every conflict that I 
can imagine, and suffered great loss, and still stay with us.
    Mr. Hunter. Thank you.
    Admiral Buzby.
    Admiral Buzby. Absolutely, sir. The Jones Act really is the 
linchpin. It is foundational to our merchant marine as it is 
today. It is not just the--it is the ships.
    It is the mariners, which are critical. And it is the 
infrastructure that supports the shipbuilding and ship repair 
part of the industry and all of the supply chain that impacts 
that, because that all has impact on our government 
shipbuilding programs as well. The costs of all of those and 
the availability of shipbuilders are greatly impacted by that 
as well. So it has far-ranging impact.
    Mr. Hunter. So two things. I think it would be interesting 
to see a study, even a down-and-dirty one, on what it would 
cost to basically have a Ready Reserve Fleet of MSP ships. What 
would that cost to have those 60 ships sitting around, waiting 
to be used, if they weren't doing commercial stuff or carrying 
government cargo?
    Two, I think it would be interesting to look at how many 
shipyards you would lose and how many mariners you would lose 
in CONUS [continental United States] if you got rid of the 
Jones Act. The Jones Act is under constant fire, wrongly. But 
it would be interesting to see how many small shipyards and 
medium shipyards--they might make intermodal ships and barges, 
but they still bend steel.
    They still have people that know how to build ships and 
power plants and that kind of thing. It would be interesting to 
see what we would lose there, what that deficit would be if we 
said fine, we are going to buy all South Korean ships or French 
ships or whatever. That would be interesting.
    And even if you did it down-and-dirty, I think it would be 
great, not just for this committee, but I also chair the 
Maritime and Transportation Subcommittee on the Transportation 
Committee, right, Maritime and Coast Guard.
    So those would be two interesting things where we could see 
the massive gap, the massive hole that would be left if you got 
rid of the Jones Act, if you underfunded the MSP, and you had 
ships start falling out of that, what that would cost to make 
that up organically.
    But thank you both for your service, and thank you for 
being here.
    I yield back.
    Mr. Wilson. And thank you very much, Congressman Hunter. 
With your background, this is very helpful.
    And we proceed now to Congressman Anthony Brown of 
Maryland.
    Mr. Brown. Thank you, Mr. Chairman.
    Thank you, General McDew and Admiral Buzby, for your 
appearance here today.
    Let me start, General McDew, by informing you that we are 
doing just well at Joint Base Andrews, although we miss your 
leadership.
    I want to turn your attention to the Pacific Command, and 
more specifically, to the Korean Peninsula. I have had an 
opportunity to speak with a number of your peers, your 
colleagues, General Brooks last week, Admiral Harris, who is 
testifying before the committee. This afternoon, I will be 
speaking with General Brown.
    And my focus has been on NEO, noncombatant evacuation 
operations. It is my understanding that General Brown has, sort 
of, the lead on coordinating, planning that effort. But no 
doubt TRANSCOM is going to play an important role, as you are, 
you know, bringing forces and materiel to the fight, I am 
assuming. And I would like to hear more about what role you 
will play in supporting NEO.
    I have concerns about our level of planning and 
coordination, tabletop exercises, rehearsing.
    Can you tell me, specifically, what TRANSCOM's role will be 
in NEO operations? What the level of readiness is? What our 
posture is? What challenges you are seeing right now in 
supporting PACOM's NEO operations?
    General McDew. The NEO operation on the Korean Peninsula 
would be a challenging undertaking, particularly if you get to 
several issues. One is how much indications and warnings there 
might be for a fight of that magnitude; the number of people 
that could be evacuated prior to hostilities starting. And you 
have different avenues off the island before that happens. Once 
a conflict erupts, those avenues start to diminish.
    If we were starting to project a force from the continental 
United States to help fight a fight on the Korean Peninsula, 
that might have to be interrupted to use those same assets to 
remove people from the peninsula, if that were to come to pass.
    Step back even further. Our network of hospitals and things 
that we would use here in the continental United States to 
regenerate a force or to care for sick, ill and injured is no 
longer what it was. So that network of hospitals we would use 
to come back through the CONUS has been impacted. We are 
working with national health organizations and others to see 
what we can do to challenge that current reality.
    If we had had this happen during flu season, many of the 
beds that were taken up in our hospitals in the continental 
United States were flu victims, and we would start to max out 
our ability to care for those people.
    So our network of hospitals, our ability to get warning and 
get people off the island without using our assets, to not 
disrupt the flow of military goods and people to the island, 
all of that will be part of it.
    We are working with PACOM, who has the lead, and we are in 
support of them, and we are in part of their planning. And it 
continually changes every day, depending on what assumptions 
you make based on what is going on.
    Mr. Brown. In the last year, and with the rollout of the 
National Security Strategy and the National Defense Strategy, 
has TRANSCOM heightened its attention, its focus on the Korean 
Peninsula and the support to the peninsula? Or would you say it 
is the same today as it was 4 years ago?
    General McDew. I don't like to use for my command, 
``heightened.'' So what I like to try to tell everybody is we 
look at the entire globe every single day. We don't shift. We 
don't change, necessarily. We may refine our focus a little bit 
on an area that is more volatile than another one, but we have 
to keep a broader look.
    If I get sucked in to only one place on the globe, and we 
think that we have everything we need there, then I am not able 
to be as flexible and agile bringing things from other parts of 
the globe for that effect.
    We have paid more attention because we go to more PACOM 
exercises. We go to more planning sessions with them. But I am 
also thinking about the Middle East, I am thinking about South 
America, I am thinking about homeland defense and all of it at 
the same time. But we have finitely focused.
    Mr. Brown. Just one final follow-up. I mean, you know, 
today, what is your single biggest concern or shortfall in 
terms of supporting a NEO operation in Korea, if you were asked 
to do that today? Or tonight, like we say we are ready to fight 
tonight. Let us go to war tonight. What is your biggest concern 
or shortcoming?
    General McDew. How many people may be killed before we can 
get there. But I have a bigger concern than that. Before we 
start any fight, anywhere in the world, we have got to deal 
with the cyber contested environment and the fact that we will 
have to fight our way to get to the fight.
    And we have not come to grips with that necessarily, as a 
Nation, that we don't own every domain anymore. Seventy years 
of going without a fight has put us in a different place as a 
Nation.
    That is as big a concern as any, even then when you start 
about NEO and whether the American public is ready for the fact 
that we don't control everything that we once did.
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Wilson. And thank you, Congressman Brown.
    We now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    I have a couple of issues I would like to hit on, first and 
foremost, the men and women.
    Admiral Buzby, you are a graduate of the Merchant Marine 
Academy.
    Admiral Buzby. Yes, sir.
    Mr. Scott. I, as a parent, looked at the various academies. 
And midshipmen at Kings Point are treated very differently than 
the men and women at any of our other Federal service 
academies.
    At any of the others they receive pay. Although I think 
that our cadets would tell you the pay is not maybe exactly 
what--it is not exactly $900 by the time things are taken out 
of it. And they are covered under health insurance, where at 
Kings Point, they are not.
    And I just wonder if maybe we could do more for the 
midshipmen at Kings Point, elevate the Merchant Marine Academy, 
quite honestly, to the status that I think it deserves. And any 
thoughts you might have on that?
    Admiral Buzby. Yes, I thank you for that, sir.
    And, yes, I am a very proud graduate of Kings Point. And we 
are a bit different. We are not DOD. We are not DHS [Department 
of Homeland Security]. Our students are civilians. They are not 
part of the military or government employees like they are at 
the other places. So that is why they don't get paid and why 
they don't fall under those other bits of coverage.
    We would have to, basically, fundamentally change the way 
that the school is organized in order to, you know, bring them 
under some sort of more government umbrella to make them 
employees, if you will, which would be an option but, you know, 
there would be a big cost associated with that.
    Mr. Scott. Sure. Fair enough. You are just a graduate that 
has a done a tremendous amount for the country and interested 
in your thoughts on that. And hope that maybe as we look at how 
we get more merchant mariners in the service, that might be an 
opportunity there with helping the midshipmen and others.
    One of my biggest disappointments in the things that I have 
seen in the budget has been the proposal to retire either the 
Comfort or Mercy, one of our hospital ships. I was recently in 
Djibouti and noticed that the Chinese actually had a hospital 
ship in port over there and are delivering services.
    I think that soft power is extremely important. And as 
respectfully as I know how to, I want to criticize the decision 
to draw down that soft power. I would actually hope that we 
would be building more ships where we could deliver services to 
the citizens as they need it.
    So what do you propose doing to account for the loss of one 
of, I believe, our most powerful assets, although it is soft 
power. How would TRANSCOM provide services in the case of mass 
casualties? What are you going to do in contested environments, 
in the case of hurricanes, where we have traditionally used one 
of these ships to provide services?
    General McDew. Congressman, as I try to be more thoughtful 
about my answers and it, sir, is a very valid question, I have 
to go back to the budget. If we don't pass a budget on time and 
give the services a reasonable expectation to know when they 
are going to get a budget, to be able to plan for a budget, we 
were going to have more tough decisions that the services will 
have to make.
    The United States Navy, the CNO [Chief of Naval Operations] 
is a really good friend of mine, John Richardson. He makes the 
best decisions he can with the resources he is given to deal 
with it. That won't be the last tough decision that he will 
have to make if we don't get our budget reality in order.
    I am even more concerned that the decisions--we have got 
men and women who have served in our Armed Forces, senior 
leaders, who have never seen a budget passed on time in their 
entire careers. Or at least in their senior developmental 
lives. There may be Members of this body, their entire tenure, 
they have never seen it done on time. And I can't go back until 
I--I have to go back to almost being a colonel.
    So those are things that are, I think, even more important 
questions to ask. What will we do? We will do the best we can. 
And I believe that a full network and all the resources we can 
bring to bear to----
    Mr. Scott. General, I appreciate your service and 
appreciate your comments.
    We have a 2018 number. We have a 2019 number. I think that 
I understand. I think your comments are justified.
    But I will tell you that this is a 2020 decision. And while 
the Chinese are making a strategic shift to not just pay off 
the leadership of countries, to provide services to the 
citizens of a country, for the U.S. to pull back on that soft 
power side, I think it is a strategic mistake for us.
    Thank you for your service.
    Mr. Wilson. And thank you so much, Congressman Scott, for 
your heartfelt questions.
    We now proceed to Congressman Joe Courtney of Connecticut.
    Mr. Courtney. Thank you again, Mr. Chairman. And again, 
thank you to both witnesses.
    Good to see you, General McDew, here again.
    And congratulations to you, Admiral Buzby, on your 
confirmation as the MARAD administrator.
    Admiral, this subcommittee, you know, has really actually 
been pretty engaged on the question of the national security 
multi-mission vessel, which is to, you know, recapitalize the 
Maritime Academy ships.
    You know, we, in the last NDAA, authorized $50 million for 
that program. And we will see what the appropriators finally 
produce in the next hopefully couple days or so. And again, 
there have been prior authorizations that have sent that 
signal.
    Obviously, the administration has come over with something 
much different. And I guess the question I would ask is maybe 
just if you could, sort of, talk a little bit about how you 
see, you know, that proposal which again, will deal with two 
academies.
    There are four others that are, sort of, built in the 
recapitalization program for. And just whether or not you see, 
you know, our plan or the congressional plan as, sort of where 
does that fit in in terms of, again, particularly those four 
remaining academies?
    Admiral Buzby. Right, thank you. Yes, sir. The school ships 
are a very high priority of ours. We fully recognized the 
criticality of them to the whole idea of mariner training, in 
particular those two old ships, the Empire State and the 
Kennedy, that absolutely need to be recapitalized now, which is 
why I think we seized upon the opportunity with the fiscal year 
2019 budget request to try and take care of two of them 
immediately, right away, with using used ships, what we would 
modify to serve as training assets.
    You know, we will have to see what comes out of 2018. You 
know, that may advise us a different direction to go in 2019.
    But absent that, you know, we have the design for the new 
ship and that is a great place to go. That is, I think, an 
aspirational goal to get to. It is a very capable ship. And it 
actually will help advise us on the kinds of things that we 
would want to have in a ship that we would procure and modify 
if necessary in a U.S. yard.
    Mr. Courtney. Great. Well, thank you. I mean, as I said, 
this has been, you know, an issue of high interest in the 
committee, again for the reasons that General McDew said.
    I mean, at some point, we are talking really more about 
workforce than platforms in terms of this recapitalization 
program. And if, you know, we just, sort of, let this go, you 
know, it has a much bigger ripple effect in terms of the 
future, you know, maritime sailors that the country needs.
    Admiral, we also talked the other day about a project that 
was started by your predecessor, Mr. Jaenichen, you know, to, 
sort of, finally get an updated maritime strategy for this 
country, which, as he repeatedly reminded us, hasn't happened 
since 1936.
    Again, the general, you know, mentioned in his comments 
about the fact that maybe we do need to, sort of, go back and 
look at, you know, the barnacles that have built up over the 
years there.
    But again, this is not an easy project because there are so 
many agencies that, you know, touch, you know, this issue. And 
I was just wondering, again, what your thoughts are about 
trying to complete that project and, you know, whether or not 
you see any timeline that we can expect?
    Admiral Buzby. Well, that draft strategy was waiting for me 
in my inbox the first day I walked in to take over as 
administrator. And I actually participated in contributing to 
it prior to becoming the Maritime Administrator. And I think 
Administrator Jaenichen did a great job putting that together.
    It is my goal to get that across the finish line. We are 
working on it in my staff right now to update it, bring it up 
to reality, to the realism of today. And we are getting it 
chopped within MARAD right now. And we will be getting out to 
the industry to have a look at here very shortly.
    And the goal is to get it out so we can all start rallying 
behind it. It is an important document.
    Mr. Courtney. Absolutely. Again, as the general said, we 
are a maritime country, and I think it is time to get, sort of, 
a clear focus.
    Again, the Seapower Subcommittee, which I think at some 
point probably will have a role to play in terms of executing 
on some of that strategy, as I said, we are on standby, you 
know, waiting for that process to be completed.
    Again, I want to thank you for, again, your commitment to 
finishing it.
    Admiral Buzby. Yes, sir.
    Mr. Courtney. So with that, I yield back.
    Mr. Wilson. And thank you, Ranking Member Courtney.
    We now proceed to Congressman Trent Kelly of Mississippi.
    Mr. Kelly. Thank you, Mr. Chairman.
    And thank both of you flag officers, general officers, for 
being here today and thank you for what you do.
    General McDew, I want to go back to Mr. Scott from 
Georgia's question, because I don't think that is an adequate 
answer.
    United States Navy hospital ship Comfort deployed to the 
gulf coast of Mississippi in 2005 to respond to Katrina. In 12 
days, the medical crew there provided care and medical 
treatment that was sorely needed by the residents in my State 
and the emergency workers in Mississippi and Louisiana.
    Our hospital ships have served American citizens, foreign 
nations, in times of emergent and national disasters forever. 
There is a national security requirement for two ships to 
respond to mass casualties from a potential forcible entry 
operations. And the Navy is planning on retiring one of them. 
If the requirement is two, we have to have two or either we 
have to be screaming loudly.
    And I don't think blaming it on the budget from the House--
I have only been here 3 years, so I haven't been here as long 
as those guys. The House passed ours in September. We passed it 
again in November. And we passed it again for the defense part 
of that again in January.
    So we passed it three times through this House and we have 
got to get the Senate, but that still doesn't excuse--when I 
was a district attorney and I lost a statement that I needed 
for a murder case, I couldn't say just dismiss the murder. I 
still had to try that murder case and I had to find a way to 
win.
    We have an obligation to our soldiers, sailors, airmen, and 
Marines, and also the civilians across this world, for you to 
scream loudly to the CNO or whoever that is that makes that 
decision to say we have a national requirement for two.
    And so I really hope that you would take that back and say 
we have a requirement for two, not just for wartime and 
forcible entry, but also for peacetime.
    And so I just really ask that you fight as hard as you can. 
Even though they may have thrown out your best option of 
evidence, please push hard to get us that second ship because 
there will come a time when we need that. And we need to always 
be ready.
    And I think you are the guy who has to push that for us. We 
can't speak as loudly as you can, General McDew. And so I hope 
you will tell me you will do that.
    General McDew. I will try my best. And I would like to 
apologize if any of my comments seemed to be offensive about 
the budget. I speak loudly about the things I feel obligated to 
speak about in the defense to the Nation. The budget happens to 
be one of them.
    Hospital ships, I am a big fan of hospital ships, because I 
love the fact that we can help injured and ill members. But I 
will tell you, for every one hospital ship we are short, we are 
going to have a requirement for 479 air refueling tankers.
    Mr. Kelly. I agree. And that is my next question.
    General McDew. We have a requirement. I can throw a bunch 
of numbers at you.
    Mr. Kelly. I am there, too. And I actually ate dinner--I 
actually spent some time with Secretary Mattis last night and I 
echoed your point about doing things on time. So I am doing my 
part to fuss at whoever I need to get us there, because I agree 
with you wholeheartedly.
    But I also know that in hard times, we just got to suck it 
up and get there. We got to figure out a way. Because I have 
served 32 years and I am military.
    I want to go back to C-17s and KC-135s. Mississippi has two 
grade wings or squadrons. I am not an Air Force guy. I am an 
Army guy. You know, we talk about battalions and brigades, not 
wings and squadrons.
    But I will tell you, those guys have been the first to 
deploy and the first to get there timely every time this Nation 
has had an incident. And our C-17--and I would invite you to 
come down and visit those guys. And I know that you have 
before, but I want you to come see them again.
    But it concerns me that with the shrinking requirements, 
that we are shifting assets to not make those guys as ready. 
Let me just tell you, our pilots are as good or better than the 
guys on Active Duty because they get more hours because they 
also fly civilian. Our maintainers are better because they are 
more experienced, have been there longer, and continue to 
maintain.
    So I just ask, when you are looking at any kind of leveling 
or any of those requirements, General McDew, just make sure 
that you understand those guys are ready and they can, do, 
have, will deploy on a moment's notice.
    And we were strategic reserves when I was a kid, but the 
Guard and Reserve is no longer strategic. They are operational, 
and we have to plan for them to be that.
    And I know you are doing that, General McDew, so I just, 
kind of, want to give you a shout-out and thank you. But I also 
wanted you to respond to that a little.
    General McDew. I am one of the biggest fans you will ever 
find of the Guard and Reserve. I have flown with those units, 
and I have actually trained with those units. The wing 
commander of one your units was actually my stick partner when 
I went through C-17 initial qualification. I probably was the 
instructor for some of the guys on the 135. So I absolutely 
agree with you.
    But here is another thing I would throw back. We are using 
them as an operational reserve. We are not funding them and 
resourcing them to be an operational reserve.
    I know they will come to the sound of the gun when we ask 
them to. But what we are asking them to do every single day is 
getting harder and harder, and will they stay with us in what 
we might call peacetime, at the pace we are using them? I 
believe they will, but I think I want to pay attention to how 
we are using them in peacetime.
    Mr. Kelly. I can speak for my Mississippians. We will be 
there. We will stand fast. We always have. And thank you.
    And I yield back, Mr. Chairman.
    Mr. Wilson. And thank you, General Kelly, for your 
questions.
    We now proceed to Congresswoman Susan Davis of California.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you, both of you, for being here today.
    I am sorry I missed some of your earlier comments, but I 
wanted to get back to two issues that have been discussed by my 
colleagues, the first one dealing with the Ready Reserve Force.
    And in previous testimonies, we talked about allowing a 
foreign-constructed ships to be inducted into the Ready Reserve 
Forces. This is very different than the personnel that we need 
to do that as well. But I didn't know what TRANSCOM's plans 
recently have been discussed to recapitalize the Ready Reserve 
Force. What is the length of time that it would take to 
implement this plan?
    General McDew. So really, I believe the committee may have 
had some folks here yesterday or the last few days to talk 
about the Navy's plan to recapitalize----
    Mrs. Davis. Right.
    General McDew [continuing]. That force. And right now it 
has got a multipronged program because we can't buy our way out 
of this problem overnight.
    One of them is to service life extend several of the 
younger sets of ships as we can. The other will be to try to 
buy used. That avenue we have to have as a bridge to building 
new ships.
    The point we get to building new ships is, I think, 2028. 
So between now and 2028, I really don't want to be the largest 
owner of steamships in the world. You don't want me to be the 
largest owner of steamships in the world. So it has got to have 
that multipronged approach, and we need your authority.
    Mrs. Davis. Do you see that more with retrofitting? And 
would we be doing that domestically?
    General McDew. So the buy used or the building ships? The 
building ships would be a plan to build in U.S. yards. The 
service life extension would be worked on in U.S. shipyards. 
The buy used could be a combination that we would be right now 
having to go out on air--I mean, American-built ships on the 
open market, which there are fewer of those because the decline 
of international trade in the U.S. market over time.
    Mrs. Davis. And what about security concerns on foreign-
constructed ships?
    General McDew. The foreign-constructed ship would need to 
be retrofitted and brought to U.S. standards in U.S. yards.
    Mrs. Davis. Okay. And I am sure those concerns are being 
attended.
    General McDew. And we have many of those ships that we were 
proposing to purchase used are sailing for us now in the MSP 
program.
    Mrs. Davis. Thank you. Appreciate that.
    And on the issue that we have have just been discussing, 
and I am delighted to hear my colleagues talking about needing 
to project soft power through the Mercy and Comfort. And having 
been on the Mercy when it is out in theater, I greatly 
understand and know how important that is.
    So I think we are looking at 2020, and obviously the 
decision has to be made far before that. Do you see us weighing 
in on that and trying to look at what we might do to think 
about a replacement? Is that in the cards? What are you 
thinking about?
    And the other thing, General, don't feel bad about the 
budget. That is exactly what you needed to say, frankly, from 
my point of view. Because we make a lot of decisions here and 
they have got be connected to these issues. And, quite frankly, 
they are not.
    And so when we create large spending measures in the form 
of tax cuts and other things that we do, I mean, we need to be 
thinking about how that impacts this. And it is very 
appropriate for you to raise that issue. So I wanted to be 
supportive of you in doing that.
    So what are the plans for replacement? And how can we be 
thinking about this so that perhaps we make a very strong 
statement about the strategic implications of not having that 
kind of a force available to us in the future?
    General McDew. I will defer the actual plans for 
replacement of the Comfort, those hospital ships, to our Navy 
for that decision. That has got to be in their budget top line 
and they have to get through that and as part of their overall 
recapitalization plan for ships in the shipbuilding strategy.
    My apology, by the way, was not because of what I said. It 
was if it was took as offensive. That was my apology. I am a 
Southern boy----
    Mrs. Davis. Sir, I didn't take it offensively.
    [Laughter.]
    Just yes. Thank you. So at this point, it is in the Navy's 
hands, and if we have an interest in weighing in on that, I 
think what would be helpful, and again, this is, you know, I am 
sure the Navy is listening, that it is important to know what 
is that worth to us? I mean, what is it worth it, you know, 
to----
    General McDew. Well, I would offer that question on a 
number of things across our country. And in particular, I love 
the fact that you have us here today shining a light on some 
areas that don't get a light shined on them.
    Everybody likes to talk about our kinetic force, and we can 
build the greatest assets in the world, but there are a lot of 
things that are foundational to the Department of Defense and 
national security that go without this kind of attention.
    Mrs. Davis. Yes.
    General McDew. And I go back to our commercial industry. I 
will go back to all those assets that are out there that make 
us the Nation that we are.
    Mrs. Davis. Thank you.
    Mr. Wilson. And thank you, Congresswoman Davis.
    We now conclude with the best, Congressman Bradley Byrne of 
Alabama.
    Mr. Byrne. Thank you, Mr. Chairman.
    Admiral Buzby, my Uncle Jack Langsdale graduated from the 
Merchant Marine Academy and served in World War II.
    Admiral Buzby. Great. God bless him.
    Mr. Byrne. I came across a letter that he wrote to my 
grandmother Christmas Eve 1942, telling her that he is fine, 
``But if you don't hear from me, that is good news.'' The next 
thing she heard he was lost at sea with all hands on his ship. 
And we lost thousands of merchant mariners, you know, during 
World War II.
    And I was thinking about that when I was looking at your 
written testimony because I heard you say we have got 1,800 gap 
on merchant mariners. But your written statement says, ``The 
estimate assumed that all qualified mariners would voluntarily 
report when called upon.'' I think that probably would happen. 
``And that there will be no ship losses or personnel 
casualties.''
    Admiral Buzby. Right.
    Mr. Byrne. We know that is not likely to be the case.
    Admiral Buzby. That is correct.
    Mr. Byrne. So your 1,800 number dramatically underestimates 
what our need is.
    You heard Mr. Courtney's on the Education and Workforce 
Committee, Chairman Wilson's on the Education and Workforce 
Committee, Ms. Stefanik's on the Workforce Committee. I am too. 
What can we do to help?
    Admiral Buzby. Well, the biggest thing, probably, you know, 
it is going to be a matter of--that is a good question.
    [Laughter.]
    Mr. Byrne. That is why I asked it.
    Admiral Buzby. There are a lot of ways to come at it.
    You know, the 1,800 people short, the way we have place for 
people to work today is more ships. And for more ships to be 
around there has to be more cargo. It all kind of hangs 
together.
    Mr. Byrne. Right.
    Admiral Buzby. So it needs to start with that and then work 
up toward with more cargo to carry, more opportunity, more 
ships then, therefore, to be around to carry it, requiring a 
larger pool of mariners there to man those ships. So that is 
really what it comes down to.
    Mr. Byrne. Yes. And then, sometimes we get lost at that 
here in Congress. We think that what is going on here is we are 
trying to prop up some private sector industry for its own 
sake. That private sector industry is critical to the national 
security issues regarding the United States----
    Admiral Buzby. Absolutely.
    Mr. Byrne [continuing]. Of America.
    Admiral Buzby. That is what we depend upon.
    Mr. Byrne. And so we want to help you. You can help us by 
helping us put that case together. And you can state it better 
than we can. It is better for us to refer to you and what you 
have determined and what you think is important for the 
security of the country. And I would ask you to help us help 
you by giving that to us and give us a plan.
    What do you want us to do? Here in the Armed Services 
Committee, Education and Workforce Committee, what do we need 
to do so that we make sure that we have those personnel in 
place?
    Because there is a conflict out there in the future and we 
are hearing in other hearings that our adversaries are 
developing very capable submarine fleets, just like the Germans 
did before World War II.
    And we have got to be very dry-eyed about this and 
understand what is out in front of us and what we have got to 
be prepared for because if we wait until the conflict happens--
you know this better than I do--it is too late.
    Admiral Buzby. Right.
    Mr. Byrne. We have got to do it now. So I would just ask 
you to help us help you by giving that to us. Lay out the game 
plan for us.
    I told this to Secretary Spencer not too long ago. I am 
like the offensive guard on the football team. Coach call in 
the play. But you got to give us that play so we can know what 
we need to do to carry it out. And I just ask you to spend some 
time thinking about that and let us know.
    Admiral Buzby. Right. And we will be happy to provide that.
    Mr. Byrne. And with that, Mr. Chairman, I yield back.
    Mr. Wilson. And thank you, Congressman Byrne, for your 
extraordinary family heritage.
    [Laughter.]
    We thank the witnesses. We appreciate your service to the 
Nation.
    And Tom Hawley has been excellent again keeping us on 
track.
    We are adjourned.
    [Whereupon, at 10:23 a.m., the subcommittees were 
adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 8, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 8, 2018

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 8, 2018

=======================================================================

      

            RESPONSE TO QUESTIONS SUBMITTED BY MS. HANABUSA

    Admiral Buzby. On an annual basis, of the Maritime Security Program 
(MSP) ships that receive stipends, none have been called into full-
time, exclusive service for the Department of Defense (DOD). 
Nevertheless, all MSP vessels transport DOD and/or other impelled U.S. 
government cargoes over the course of any year as part of normal 
operations. In addition to the MSP stipend, these ships are paid to 
transport government cargoes. The MSP provides a monetary incentive for 
DOD to have assured access to a fleet of 60 privately-owned, 
commercially active, and militarily useful ships, with predominantly 
U.S. citizen ownership and crews, as well as the global intermodal 
networks maintained by most MSP participants. In return for a monthly 
retainer, or stipend, participating carriers commit to making these 
ships and associated intermodal capacity available ``on call'' to meet 
DOD transport requirements. The MSP fleet is a key component of U.S. 
sustainment sealift readiness. [See page 15.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 8, 2018

=======================================================================

      

      

                    QUESTIONS SUBMITTED BY MR. COOK

    Mr. Cook. Must an airline be a U.S.-flagged carrier to participate 
in CRAF? Must that U.S. air carrier participate in CRAF in order to bid 
on routes awarded under the GSA city pair program? With all of that in 
mind, would it make sense that the GSA city pair program should use the 
same tier system utilized by the CRAF program?
    General McDew. Yes. To be eligible to participate in CRAF, air 
carriers must possess a certificate issued under section 41102 of title 
49, US Code. Certificates under that section may only be issued to U.S. 
citizens.
    Yes. Since the 1990s, the GSA has required CRAF membership as a 
condition of being able to bid on, and be awarded, routes under the 
City Pair Program. This policy was implemented at the request of DOD 
following the first Gulf War in 1990-1991.
    The division of CRAF into domestic, international (long-range), and 
international (short range) segments defines the capability available 
to support DOD within those segments. I would defer to GSA on whether 
this same segmentation would meet GSA's needs under the City Pair 
Program.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Admiral Buzby, the Texas A&M Maritime Academy has been 
in operation since 1962 and is the only State maritime academy in the 
Gulf of Mexico. Unfortunately, the Texas A&M Maritime Academy has 
operated without a suitable training vessel for over a decade. The 
President's FY19 budget provides $300 million to acquire and convert 
ships for the New York and Massachusetts Academies. However, the budget 
does not include anything for Texas. Additionally, it eliminates the 
direct support that all Academies rely on which also places the Texas 
program in serious jeopardy. What is the administration's plan to 
ensure the Texas A&M Maritime Academy will get the asset it needs to 
continue making its contribution to our maritime mobility and 
transportation capacity?
    Admiral Buzby. MARAD's plan is to recapitalize the Training Ship 
Fleet based on remaining service life. The order in which the training 
ships are replaced must be based on the remaining service life of each 
vessel to ensure safe operations and to maximize continuous 
availability of critical training capacity for students at all the 
state maritime academies (SMAs). This approach would place Texas A&M 
Maritime Academy (TAMMA) fourth in line to receive a replacement 
vessel. The FY 2019 House and Senate Appropriations Committee markups 
provide $300 million for the construction of the second National 
Security Multi-Mission Vessel.
    It will take several years for MARAD to recapitalize the entire 
training ship fleet. During that recapitalization period, all the SMAs 
will be in a ship-sharing phase. In fact, TAMMA cadets will be trained 
aboard the TS EMPIRE STATE, as part of the current ship-sharing 
arrangement. The Senate Appropriations Committee mark-up for FY 2019 
provides $8 million to cover the cost of ship-sharing to help reduce 
related expenses borne by the SMAs, including TAMMA. MARAD will also 
host a conference this fall to develop a detailed ship-sharing plan, at 
which all representatives of the SMAs will have ample opportunities to 
provide input.
    Finally, in recognition of concerns that TAMMA officials have about 
the current training vessel arrangement, MARAD offered to make one of 
our larger Ready Reserve Fleet (RRF) ships available to TAMMA for pier-
side U.S. Coast Guard-required training. Relocating a RRF ship to TAMMA 
would also provide the additional classroom space required to justify 
requests for additional funding from the State school system. A RRF 
ship's presence would also prepare TAMMA to receive a bigger and newer 
ship, if dredging and pier improvement necessary to accommodate a 
vessel of this size are made.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BYRNE
    Mr. Byrne. The United States is faced with declining merchant 
mariners and our own policies appear to exacerbate this shortage. The 
10-year security assistance memorandum of understanding signed with 
Israel in 2016 precludes Israel from purchasing U.S.-flagged vessels 
with U.S. mariners. At a time when the Maritime Administration believes 
we are short over thousands of mariners, is such a policy wise? 
Wouldn't the United States be better off doing everything it can to 
make it easier for U.S. shipping companies and their merchant mariners 
to participate in sealift programs that serve to supply U.S. Armed 
Forces?
    Admiral Buzby. Efforts have been made to address concerns within 
the MOU. In relevance to the U.S. merchant marine, the Government of 
Israel will be permitted to continue its utilization of funds derived 
from the Foreign Military Financing program to procure U.S. sourced 
fuels. These fuels will be mandated for transport onboard American flag 
vessels.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GALLAGHER
    Mr. Gallagher. What impact has INSURV inspections had on the Ready 
Reserve Fleet and how has conducting these inspections influenced or 
change readiness expectations?
    Admiral Buzby. The Navy's Board of Inspection and Survey (INSURV) 
has no impact on readiness of RRF ships. By statute, MARAD must ensure 
the RRF fleet meets the regulatory requirements of the U.S. Coast 
Guard, and maintains ships in-class, under the classification society 
rules of the American Bureau of Shipping (ABS). MARAD has adequate 
control measures for inspection and quality assurance to identify 
needed repairs to ensure readiness, but the RRF still requires 
resources to meet planned service life extensions and maintenance of an 
aging fleet. The average age of Ready Reserve Force (RRF) vessels is 44 
years.
    MARAD supports the Navy's plan for RRF recapitalization, but notes 
that the requirement to reach 60-years of service life for nearly all 
46 ships in the RRF fleet is likely to result in resource challenges. 
Maintenance activities necessary for these service extensions take 
longer and are more complex. As the service life of hulls, equipment, 
and systems reach the end of economical service, MARAD is compelled to 
apply more resources across the entire fleet for urgent requirements, 
and to defer non-critical efforts for military utility and readiness 
efforts for extended service life. The GAO's August 2017 report: NAVY 
READINESS--Actions Needed to Maintain Viable Surge Sealift and Combat 
Logistics Fleets (GAO-17-503) details how readiness is impacted by 
deferred maintenance and extension of service life to 60 years.
    Mr. Gallagher. Would there be an impact on the merchant mariner 
manpower shortage if the Navy required the credentialing of surface 
warfare officers to meet international rules of the roads requirements?
    Admiral Buzby. In the near term, there would be little or no impact 
for licensed mariners. It generally takes eight to ten years to attain 
the training and sea time necessary to reach the highest level 
unlimited credentials of Master or Chief Engineer. Nevertheless, a 
percentage of the sea time spent aboard certain military vessels does 
qualify as valid sea time for purposes of obtaining or raising the 
level of a merchant mariner credential. In addition to sea service, 
however, there are other training requirements and written examinations 
that all applicants are required to pass in order to obtain or raise 
the level of a U.S. merchant mariner credential. Assuming a percentage 
of Surface Warfare Officers (SWOs) obtain the highest level of mariner 
credentials and exit military service for commercial U.S.-flag maritime 
employment, then such a requirement could help provide some relief.
    MARAD is most concerned about a shortage of mariners with the 
highest level unlimited credentials. While data limitations currently 
prevent MARAD from breaking down mariner shortages into subcategories, 
in MARAD's experience hiring mariners for its own organic fleet, and 
according to similar accounts from representatives of labor and 
industry, it is most difficult to find higher level unlimited licensed 
mariners and not entry-level Third Mates or Third Engineers.
    It is also important to note that merchant mariners are civilians, 
and service aboard any ship is completely voluntary. The proportion of 
fully qualified mariners that might volunteer for sealift mobilization 
cannot be estimated with greater accuracy without a survey to determine 
current levels of volunteerism. Accordingly, the Maritime Workforce 
Working Group (MWWG) recommended conducting a survey of U.S. merchant 
mariners to determine their availability and willingness to volunteer 
for sealift services if asked to do so. In response to that 
recommendation, MARAD is working with the Department of 
Transportation's Bureau of Transportation Statistics and has secured a 
contract to conduct a biennial survey of mariner availability and 
willingness to sail for specific types of licensed and unlicensed 
mariners.

                                  <all>
</pre></body></html>
